OIG Audit Report GR-60-09-008

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by Monterey County, California
Audit Report GR-60-09-008
February 2009
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to Monterey County, California.  As of October 30, 2008, Monterey County had received SWBPI funding totaling $192,930. 
Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or multi jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF).  Many U.S. Attorneys, including the U.S. Attorney for the Northern District of California, have developed prosecution guidelines which govern the most common violations of federal law.  These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court.  As a result, many federally initiated cases occurring near the southwest border are referred to the state or county for prosecution.
The SWBPI was established in Fiscal Year (FY) 2002, when Congress began appropriating funds to reimburse state, county, parish, tribal, and municipal governments for costs associated with the prosecution of criminal cases declined by local U.S. Attorneys offices.  Reimbursements received from SWBPI funding may be used by applicant jurisdictions for any purpose not otherwise prohibited by federal law.  For FY 2008, Congress appropriated $30 million for the SWBPI.
The objective of our audit was to determine if the SWBPI reimbursements received by Monterey County were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI. 
We found that Monterey County claimed and was reimbursed for cases that were ineligible under the SWBPI guidelines.  Specifically, we identified questioned costs totaling $76,804 for cases that were not federally initiated, submitted in the wrong quarter, or submitted twice.  In addition we identified $41,250 in funds to better use for cases that were submitted under the both prosecution and pre-trial detention category when only prosecution was eligible or supported.1
These issues are discussed in detail in the Findings and  Recommendations section of the report.   Our audit Objectives, Scope, and Methodology appear in Appendix I.


 

Footnotes

The Inspector General Act of 1978, as amended,  contains our reporting requirements for questioned costs.  However,  not all findings are dollar-related.  See Appendix II for a breakdown of our  dollar-related findings and for definitions of questioned costs and funds to  better use.





 




Return to OIG Home Page